NO:

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
IHT INSURANCE AGENCY GROUP LLC WELFARE BENEFITS PLAN,
ET AL., RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,995 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 2nd day of August, 2021.

Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se of behalf of
Merrilee Stewart, Petitioner

